No. ______
In the

Supreme Court of the United States
__________________
CRANSTON POLICE RETIREES ACTION COMMITTEE,
Petitioner,
v.
THE CITY OF CRANSTON,
__________________

Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of the State of Rhode Island
and Providence Plantations

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
PATRICK J. SULLIVAN
Counsel of Record
SULLIVAN AND SULLIVAN
300 Centerville Road
Suite 300W
Warwick, RI 02886
(401) 823-7991
patrick@sullivan-attorneys.com

MARISA A. DESAUTEL
MICHELLE M. HAWES
THE LAW OFFICE OF
MARISA DESAUTEL
38 Bellevue Ave.
Newport, RI 02840
(401) 477-0023
marisa@desautelesq.com

Counsel for Petitioner

August 30, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
When members of the Cranston Police and Fire
Retirees Action Committee (hereinafter, “Petitioner
retirees” and/or “CPRAC”) retired, they were
contractually promised by the City of Cranston a yearly
minimum 3% compounding cost-of-living adjustment
(hereinafter, “COLA”). Petitioner retirees were
policemen and firemen, who paid into a retirement
plan under contract with the City of Cranston, served
and eventually retired. However, in 2013 the City of
Cranston enacted ordinances retroactively altering the
benefits earned, on members already retired, imposing
a suspension of the COLA for ten years.
In the decision below, the Rhode Island Supreme
Court acknowledged that the “suspension” amounted to
a sizable diminishment of contractual retirement
benefits. However, the City claimed that the unilateral
breach of contract was justified as an exercise of its
police power to address the City’s financial issues. The
Rhode Island Supreme Court relied on Circuit
precedent that they noted “liberally” construed the
meaning of a public purpose to justify impairing a
contract pursuant to the Contracts Clause
jurisprudence, failing to address contrary Circuit
precedent.
The question presented is:
Whether the City’s self-interested impairment of the
retirees’ contractually vested COLA benefits is a
violation of the Contracts Clause of the United States
Constitution or a taking under the Takings Clause of
the United States Constitution.

ii
PARTIES TO THE PROCEEDINGS
Petitioner is the Cranston Police and Fire Retirees
Action Committee. They were the plaintiff in the
Rhode Island Superior Court, and the appellant in the
Supreme Court of Rhode Island and Providence
Plantations.
Respondent is the City of Cranston. It was the
defendant in the Rhode Island Superior Court, and the
appellee in the Supreme Court of Rhode Island and
Providence Plantations.
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, petitioner states
as follows:
Petitioner Cranston Police and Fire Retirees Action
Committee has no parent corporation and no publicly
held company owns 10 percent or more of its stock.
STATEMENT OF RELATED PROCEEDINGS
• Cranston Police Retirees Action Committee v. City of
Cranston, (Rhode Island Supreme Court) No. 201736 (June 3, 2019)
• Cranston Police Retirees Action Committee v. City of
Cranston, et als, (Rhode Island Superior Court)
No. KC-13-1059, formerly PC-13-3212, (July 22,
2016)
There are no additional proceedings in any court
that are directly related to this case.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 3
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
A. Factual Background. . . . . . . . . . . . . . . . . . 4
B. Procedural History . . . . . . . . . . . . . . . . . . . 7
REASONS FOR GRANTING THE PETITION . . . . 9
I.

The City of Cranston’s Ordinances
Retroactively Robbed Retirees of Their COLA
benefits Without Any Meaningful Checks on
The Reasonableness of The Enactment of the
Ordinances. . . . . . . . . . . . . . . . . . . . . . . . . . . 12

II.

The City of Cranston Unreasonably Chose to
Legislate Away Their Contractual
Responsibility Rather Than Choose a Less
Drastic Approach to Address Financial
Concerns. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

iv
III.

The City of Cranston Created the Very Crisis
it Used to Try to Excuse its Breach of
Contract. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

IV.

The Petitioner’s Loss of Earned Contractual
Benefits Was Incorrectly Assessed as a
Regulatory Taking Because the Distinction
Between Physical and Regulatory Takings
Have Been Blurred. . . . . . . . . . . . . . . . . . . . . 25

V.

The Treatment of the COLA Suspension as a
Temporary Measure Rather Than a Measure
Taking Earned, Investment Backed Pension
Benefits Disregards the Actual Loss Suffered
by Petitioners to Their Earned Contractual
Rights. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
APPENDIX
Appendix A Opinion, Supreme Court of the State
of Rhode Island, No. 2017-36-Appeal
(June 3, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Decision in the State of Rhode Island
and Providence Plantations Kent, Sc.
Superior Court, C.A. No. KC-13-1059
(July 22, 2016) . . . . . . . . . . . . . . App. 70
Appendix C Transcript
Heard
Before the
Honorable Justice Sarah Taft-Carter
in the State of Rhode Island and
Providence Plantations Kent, Sc.
Superior Court, No. KC-13-1059
(November 2, 2015). . . . . . . . . . App. 136

v
Appendix D Constitution:
U.S. Const. Art. 1, § 10, cl. 1 Section
10 . . . . . . . . . . . . . . . . . . . . . . . . App. 207
U.S. Const. amend. V . . . . . . . . App. 207
Appendix E The City of Cranston, Ordinance of the
City Counsel No. 2013-5
(April 23, 2013) . . . . . . . . . . . . . App. 208
Appendix F The City of Cranston, Ordinance of the
City Counsel No. 2013-6
(April 23, 2013) . . . . . . . . . . . . . App. 232

vi
TABLE OF AUTHORITIES
Cases
AFSCME, Local 2957 v. City of Benton,
513 F.3d 874 (8th Cir. 2008). . . . . . . . . . 19, 21, 23
Allied Structural Steel Co. v. Spannaus,
438 U.S. 234 (1978). . . . . . . . . . . . . . . . . . . . . . . 10
Ass’n of Surrogates & Supreme Court Reporters v.
State of N.Y.,
940 F.2d 766 (2d Cir. 1991) . . . . . . . 15, 16, 21, 22
Baltimore Teachers Union v. Mayor & City Council
of Baltimore,
6 F.3d 1012 (4th Cir. 1993). . . . . . . . . . . . . . . . . 16
Buffalo Teachers Federation v. Tobe,
464 F.3d 362 (2 nd Cir. 2006) . . . . . . . . . . . . passim
Carlstrom v. State,
694 P.2d 1 (Wash. 1985) . . . . . . . . . . . . . . . . 18, 25
Condell v. Bress,
983 F.2d 415 (2nd Cir. 1993) . . . . . . . . . . . . . . . 15
Connolly v. Pension Benefit Guaranty Corporation,
475 U.S. 211 (1986). . . . . . . . . . . . . . . . . . . . . . . 27
Energy Reserves Group, Inc. v. Kansas City Power
& Light Co.,
459 U.S. 400 (1983). . . . . . . . . . . . . . . . . . . . . 9, 11
Heaton v. Quinn,
32 N.E.3d 1 (Ill. 2015). . . . . . . . . . . . . . . . . . 18, 31

vii
Home Bldg. & Loan Ass’n v. Blaisdell,
290 U.S. 398 (1934). . . . . . . . . . . . . . . . . . . . . . . 12
Jacobsen v. Anheuser-Busch, Inc.,
392 N.W.2d 868 (Minn. 1986) . . . . . . . . . . . . . . 13
Jones v. Municipal Employees’ Annuity and Benefit
Fund of Chicago,
50 N.E.3d 596 (Ill. 2016). . . . . . . . . . . . . . . . . . . 23
Liberty Mut. Ins. Co. v. Whitehouse,
868 F.Supp. 425 (D.R.I. 1994) . . . . . . . . . . . . . . 26
Massachusetts Community College Council v.
Commonwealth,
649 N.E.2d 708 (Mass. 1995) . . . . . . . . . 16, 24, 30
McGrath v. R.I. Ret. Bd.,
88 F.3d 12 (1st Cir. 1996) . . . . . . . . . . . . . . . . . . 15
Ex parte Milligan,
71 U.S. 2 (1866). . . . . . . . . . . . . . . . . . . . . . . . . . 31
Penn Central Transp. Co. v. City of New York,
438 U.S. 104 (1978). . . . . . . . . . . . . . . . . . . . 26, 31
Pennsylvania Coal Company v. Mahon,
260 U.S. 393 (1922). . . . . . . . . . . . . . . . . . . . 27, 28
Philip Morris, Incorporated v. Reilly,
312 F.3d 24 (1st Cir. 2002) . . . . . . . . . . . . . . . . . 26
Pierce Cnty. v. State,
148 P.3d 1002 (Wash. 2006) . . . . . . . . . . . . . . . . 13
Pure Wafer, Inc. v. City of Prescott,
14 F.Supp.3d 1279 (D.Ariz. 2014) . . . . . . . . . . . 13

viii
Sherman v. Town of Chester,
752 F.3d 554 (2d Cir. 2014) . . . . . . . . . . . . . 30, 31
State of Nev. Employees Ass’n, Inc. v. Keating,
903 F.2d 1223 (9 th Cir. 1990) . . . . . . . . . . . . 21, 22
Sveen v. Melin,
138 S.Ct. 1815 (2018) . . . . . . . . . . . . . . . . . . . . . . 1
Toledo Area AFL-CIO Council v. Pizza,
154 F.3d 307 (6 th Cir. 1998) . . . . . . . . . . . . . 13, 21
United Auto., Aerospace, Agr. Implement Workers
of America Intern. Union v. Fortuno,
633 F.3d 37 (1 st Cir. 2011) . . . . . . . . . . . . . . . . . 14
United States Trust Co. of New York v. New Jersey,
431 U.S. 1 (1977). . . . . . . . . . . . . . . . . . . . . passim
United Steel Paper & Forestry Rubber
Manufacturing Allied Industrial and Service
Workers International Union AFL-CIO-CLC v.
Government of the Virgin Islands,
842 F.3d 201 (3rd Cir. 2016) . . . . . . . . . . . . 21, 25
Univ. of Hawaii Prof’l Assembly v. Cayetano,
183 F.3d 1096 (9 th Cir. 1999) . . . . . . 13, 17, 21, 24
Valmonte v. Bane,
18 F.3d 992 (2 nd Cir. 1994) . . . . . . . . . . . . . . . . . 15
Welch v. Brown,
935 F.Supp.2d 875 (E.D. Mich. 2013) . . . . . 19, 22
Constitution
U.S. Const. Art. 1, § 10, cl. 1 . . . . . . . . . . . . . . . . . . . 4

ix
Statutes
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Ordinances
Ordinances, 2013-5 and 2013-6 . . . . . . . . . . . . . . . 4, 7
Other Authorities
Baltimore Teachers Union v. Mayor of Baltimore:
Does the Contract Clause Have Any Vitality
in the Fourth Circuit?, 72 N.C.L.Rev. 1633
(1994)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Burnham, William C. (2015) “Public Pension
Reform and the Contract Clause: A
Constitutional Protection for Rhode Island’s
Sacrificial Economic Lamb” Vol 20: Iss. 3, Article
7 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Michael Cataldo (2015) “Revival or Revolution: U.S.
Trust’s Role in the Contracts Clause Circuit
Split”, St. John’s Law Review: Vol. 87: No. 4,
Article 9 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Note, Fourth Circuit Upholds City’s Payroll
Reduction Plan as a Reasonable and Necessary
Impairment of Public Contract, 107 Harv.L.Rev.
949 (1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

1
PETITION FOR A WRIT OF CERTIORARI
In a recent decision of this Court, Sveen v. Melin,
138 S.Ct. 1815, 1826-1828 (2018), the Court
acknowledged that many jurisdictions’ application of
the Contract’s Clause has far departed from the
Constitutional mandate prohibiting states from passing
a “any . . . Law impairing the Obligation of Contracts.”
Art. I, §10, cl. 1. Indeed, disparate treatment of state
action relating to the Contracts Clause has left courts
in a quandary of applying elements of tests seeking
“reasonable” state action, diluting the impact of the
Contracts Clause until is seemingly toothless.
At issue in this case is a retiree’s rights to
contractual benefits that they have paid into, and
earned. The impact of the decisions below is that,
despite the “protection” of the Contracts Clause, the
City of Cranston was allowed to reach back into the
benefits of police and fireman who had served the City
and already retired, and take from them amounts of
compensation previously promised.
The City of
Cranston promised its police and fire retirees a yearly
compounding 3% COLA; a term negotiated into their
contracts. Many years after such negotiations, after the
actual retirement of its police and fire personnel and
vesting of benefits, finding itself reluctant to pay what
had previously been promised, the City of Cranston
enacted a 10-year suspension of the COLA to put the
promised money back in its own pocket.
Both the Rhode Island Superior Court and the
Rhode Island Supreme Court looked to the City of
Cranston’s proffered justifications, and following some
Circuit precedent felt that they must give deference to

2
the City of Cranston’s claims of financial difficulty.
Mired in sympathy and cautious of respecting the
police power of the municipality, the Rhode Island
Courts ignored contrary Circuit precedent that would
hold the City of Cranston accountable for standing by
the promises it has made, which is the very heart of the
Contracts Clause.
Jurisprudence balancing the concerns of state or
municipality’s police power with meaningful protection
against the impairment of contracts need not be totally
abandoned. However, reasonableness must be viewed
through the lens of the Contract Clause, and the need
to protect contracting parties from their contract rights
being undone when the promises and contractual
obligations are less politically expedient. Lower courts
have distorted this Court’s Contracts Clause
reasonableness test, stretching the rationale to such a
length that it has abandoned nearly any expectation
that states or municipalities must stand by their fiscal
contractual obligations. This Court must clarify a test
that no longer allows a state or municipality to excuse
the escape from their own contractual obligations
simply because they face financial difficulties, which
are inevitable. Further, guidance from this Court will
address the disparate applications of the
reasonableness test which is divided among many
jurisdictions.
In addition, courts have given short shrift to the
application of the Fifth Amendment, or the Takings
Clause to contractual benefits such of these. Despite
acknowledging that they were vested benefits, already
earned by retirees, the Rhode Island courts treated

3
COLAs as entitlements simply because they were yet
to be applied. The courts have ignored a distinction
between benefits which have yet to be enforced and
benefits yet to be earned.
The United States Constitution Contracts Clause
and Takings Clause embraces and protects contractual
promises such as the COLA benefit earned by
petitioner retirees. Yet despite the protections of the
Constitution, the confusion in the tests of
reasonableness has allowed the City of Cranston to
avoid its own fiscal responsibility for its leaders’ own
political gains.
OPINIONS BELOW
The Supreme Court of Rhode Island and Providence
Plantations opinion is reported at 208 A.3d 557 (R.I.
2019), and reproduced at App. 1-69. The Rhode Island
Superior Court’s decision regarding the Contracts
Clause is reproduced at App. 70-135. The transcript of
the Rhode Island Superior Court’s decision regarding
the Takings Clause is reproduced at App. 136-206.
JURISDICTION
The Supreme Court of Rhode Island and Providence
Plantations issued its opinion on June 3, 2019.
Petitioners have timely filed this petition for a writ of
certiorari, which expires under the Rules of this Court
on September 3, 2019. This Court has jurisdiction
under 28 U.S.C. §1257(a).

4
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Contracts Clause U.S. Const. Art. 1, § 10, cl. 1;
the Takings Clause or the Fifth Amendment, and the
ordinances enacted by the City of Cranston are
reproduced at App. 207-242.
STATEMENT OF THE CASE
A. Factual Background
Petitioner, Cranston Police Retirees Action
Committee (“CPRAC”), is a non-profit corporation
whose members (or hereafter, “retirees”) retired after
service to the City of Cranston as police officers or
firefighters. They retired under binding instruments
which guaranteed the retirees a minimum three
percent (3%) compounding COLA for the life of the
retirees and/or their spouses.1 The COLA was a vested
benefit for the retirees and/or their spouses. (App. 100).
In 2013, the City of Cranston enacted Ordinances
2013-5 and 2013-6, which suspended the minimum
three (3%) COLA for a period of 10 years. (App. 208243). This suspension was a breach of contract which
took away compensation that the retirees would have
otherwise been entitled to, but for the 2013 Ordinances.

1

After a review of the contracts of plaintiff retirees, the trial court
found that the retirees had vested contractual rights to the 3%
compounding COLA benefit, and that the impact of the ordinances
was a substantial impairment of that contractual benefit, which
was retained by the Rhode Island Supreme Court in its analysis of
the Contracts Clause. (App. 22-23).

5
(App. 97-100). The enactment of these ordinances was
the basis for the petitioner’s suit.
The 3% compounding COLA was earned
compensation. During the term of their employment,
prior to retirement, all retirees were required to, and
did, contribute amounts of their compensation into the
pension funds. Petitioner retirees served as police or
firefighters and abided by the terms of their contracts
with the City (App. 97). The 3% minimum COLA was
a term of a contract that was the result of collective
bargaining and negotiations of pension benefits. (App.
73-75). All of the petitioner retirees had already
retired and their benefits had vested at the time that
the 2013 Ordinances were enacted.
Across Rhode Island, at least 1/3 of the cities and
towns had pensions which were so underfunded that
they were deemed “critical.” The City of Cranston was
just one of the many. In 2013, when the Ordinances
were enacted, and for many years before, the City of
Cranston’s pension system was drastically
underfunded. This was because the City of Cranston
continuously failed, since before 1999, to fund the
pensions by failing to pay an amount equal to the
Annual Required Contribution (“ARC”), as
recommended by the City’s own actuaries. (App. 30, 7980) The City of Cranston was well aware it had
underpaid into its pension plan.
Under the stewardship of various administrations,
the City of Cranston’s unfunded accrued liability of the
pension increased to at least $256 million. (App. 110111). Yet, the City’s actions regarding the pension fund
were anything but remedial. The City of Cranston

6
actively depleted the available pension funds by
“borrowing” money out of the pension fund to pay for
other budget related costs. (App. 77). Instead of paying
the full ARC, the City chose to grow a rainy-day fund.
Further, the City chose not to engage in collective
bargaining to reduce or otherwise eliminate COLA
benefits for future retirees as a manner of addressing
the growing pension fund problem. In fact, as of 2012,
it was still entering into contracts promising a 3%
compounding COLA benefit to the current police and
fireman working in the City.
Both the trial court and the Rhode Island Supreme
Court took notice of the economic downturn and the
effects of the recession on the City of Cranston, around
2009-2010. They neglected to properly address that
financial difficulties, specifically in regards to the
funding of the pension benefits, started at least in
1999, far before. In addition, at the time of the
enactment of the ordinances in 2013, Cranston was in
a healthy financial state. Finally, the City of Cranston
did not raise taxes in fiscal years 2012-2013, 20132014, 2014-2015.
The City of Cranston did not consider impairing the
contract “on par” with other policy alternatives, such as
raising taxes, seeking additional state aid, refinancing
the pension unfunded liability, reducing spending, or
other possible options. The only evidence of any
“consideration” of alternatives other than a COLA
suspension was the City of Cranston Mayor’s own selfserving testimony of the measures he considered and
discounted. The City of Cranston failed to produce any
actuarial reports or any evidence of calculations or

7
assessments addressing the pension fund shortfall with
any measures other than a suspension of retirees’
contractual COLA.
So focused were the courts on the City of Cranston’s
claimed financial difficulties that they neglected to
truly challenge or test the reasonableness of the City of
Cranston’s actions in abrogating their own financial
responsibility. A true analysis, which would require
more than lip service paid to financial woes to escape
contractual responsibility, would have shown that the
true impetus in enacting the ordinances and robbing
the retirees of their COLAs was to save the City of
Cranston money for political expediency.
B. Procedural History
Petitioner CPRAC retirees filed a complaint in the
Rhode Island Superior Court, alleging, as relevant
here, that the enactment of ordinances 2013-5 and
2013-6 breached the retirees’ contracts, and violated
the Contracts Clause of the United States Constitution.
In addition, they alleged the ordinances violated the
Takings Clause of the United States Constitutions as
a taking of the retirees’ property without just
compensation. The superior court dealt with the
Takings claims summarily, assuming that the claimed
financial difficulties justified such a drastic contractual
impairment without hearing any evidence. The same
justice of the superior court as “fact-finder” thereafter
wrote a Decision that reached to embrace the purported
justifications.

8
Petitioner appealed the superior courts’ application
of the Constitutional provisions to this case, as well as
other issues to the Supreme Court of Rhode Island and
Providence Plantations. However, the highest court of
Rhode Island seemed reluctant to delve into the layers
of Contracts Clause jurisprudence, and also employed
the use of similar blinders to embrace the findings of
fact of the trial judge in regards to financial concerns;
ignoring all of the other considerations inherent in the
determination of reasonableness necessary to protect
the mandate of the Contracts Clause.
Purporting to approve that the standard to be
applied to cities abrogating their own financial
responsibility should be “less deference,” nonetheless
the Supreme Court approved as sufficient the trial
justice’s utilization of the mayor’s testimony as
“credible” as the sole factor in determining whether the
City had acted reasonably. Neither court looked to or
required objective evidence of reasonableness. Nor did
either court require evidentiary scrutiny of the
proffered justifications of the City beyond mere
credibility, putting the entire determination of
reasonableness on the shoulders of the very parties
whom such a contractual impairment would benefit.
The Supreme Court acknowledged that the
“cumulative impact of the COLA suspension on
CPRAC’s members was significant,” and yet chose to
treat these ordinances as regulations effecting
unearned compensation. Lacking guidance on how to
treat retirement benefits as distinct from unearned
compensation, the Rhode Island Supreme Court
applied precedent which was so highly deferential to

9
state action that it twisted this Court’s governance
regarding the Contracts Clause and the Takings
Clause.
REASONS FOR GRANTING THE PETITION
Since this Court decided United States Trust Co. of
New York v. New Jersey, 431 U.S. 1 (1977), in the
endeavor to ensure the police power of the states,
courts have struggled with reasonableness. Some
courts have so twisted the words of this Court in
United States Trust and the case that followed, Energy
Reserves Group, Inc. v. Kansas City Power & Light Co.,
459 U.S. 400 (1983), that they have stripped the
meaning from the Contracts Clause. The City of
Cranston’s enactment of ordinances which allow it to
walk away from its own financial obligations simply
because it later determined it was too financially
burdensome shows how hollow a shell the Contracts
Clause has become.
The Contracts Clause once provided surety that one
would be entitled to the benefit of their bargain. Now,
petitioner retirees wonder, if the City of Cranston can
enact Ordinances to undo contractual pension benefits
simply because it “feels” taxes are too onerous and that
it faces some financial difficulty, at what point should
state or municipalities ever be held to their end of the
deal? This Court must once again embrace the
Contracts Clause of the United States Constitution and
correct the wrong for retirees who have been robbed of
their contractual rights. Or, in the alternative, provide
to the retirees just compensation for the contractual
rights pursuant to the Fifth Amendment.

10
United States Trust Co. stands alone in applying
the Contracts Clause to an instance where a state’s
self-interest was at stake; and this Court made clear
that a state could not use the façade or excuse of police
power to justify walking away from its own financial
obligations. 431 U.S. at 1. Time and again, the words
of this Court from that case are repeated and yet the
practical effect is anything but uniform. In this matter,
while reciting the warnings of this Court against the
very action that has occurred, a municipality avoiding
its own financial contractual obligations, Rhode Island
has followed the lead of certain Circuit courts who have
seemingly washed their hands of the determination
reasonableness and allowed the state or municipality
to self-determine whether to abide by their own
contractual promises.
Yet, this Court has cautioned that “[i]f the Contract
Clause is to retain any meaning at all, …it must be
understood to impose some limits upon the power of a
State to abridge existing contractual relationships,
even in the exercise of its otherwise legitimate police
power.” Allied Structural Steel Co. v. Spannaus, 438
U.S. 234, 242 (1978). While there are occasions in
which this Court has approved impairing a contract to
protect the welfare of the public under a state’s police
power, a legislative enactment will only “pass
constitutional muster under contract clause analysis so
long as it is reasonable and necessary to carry out
a legitimate public purpose.” United States Trust
Co., 431 U.S. at 25-26 (emphasis added).

11
While the preservation of the police power is
important, courts have wandered in such a way that
application of this has robbed the Contracts Clause of
its power. In the manner that these tests were applied
in Rhode Island, states need only recite certain magic
words claiming “emergencies” and financial woes, and
be forgiven walking away from their own financial
obligations. This was clearly not the intention of this
Court, and a misinterpretation of the Contracts Clause
jurisprudence. This Court has stated that “[w]hen a
State itself enters into a contract, it cannot simply walk
away from its financial obligations. In almost every
case, the Court has held a governmental unit to its
contractual obligations when it enters financial or
other markets.” Energy Reserves Group, 459 U.S. at
412 (1983) n. 14
Although the words of the Contracts Clause itself is
a mandate against any impediment to contracts, this
Court has allowed the state to act in a regulatory
manner in the public interest is at stake, allowing a
limited grant of the ability to reasonably impair private
contact rights. This Court has never approved a
situation where a state or municipality repudiated
their own contract to pay, failing to deliver on their
promise because they later decided it was financially
unfavorable; yet, this is the very situation that Rhode
Island approved. This is a sorry misapplication of the
Contracts Clause.
This Court was clear: even if the Contracts Clause
does not forbid all impairment of contracts due to the
need to preserve police power, “[t]his principle
precludes a construction which would permit the state

12
to adopt as its policy the repudiation of debts or the
destruction of contracts or the denial of means to
enforce them.” Home Bldg. & Loan Ass’n v. Blaisdell,
290 U.S. 398, 434 (1934). The City of Cranston
repudiated its own debt, and the police and fire retirees
were powerless to enforce their contracts with the City
to ensure the benefits that they had already earned.
I.

The City of Cranston’s Ordinances
Retroactively Robbed Retirees of Their
COLA benefits Without Any Meaningful
Checks on The Reasonableness of The
Enactment of the Ordinances.

The City of Cranston stated that there was a “need”
for the Ordinances undoing the contractual rights of
the petitioner retirees; that due to circumstances
causing financial concerns they were justified in their
actions. However, as this Court has stated, “[a]
governmental entity can always find a use for extra
money, especially when taxes do not have to be raised.”
United States Trust Co., 431 U.S. at 29. As such, any
such declaration must be highly suspect. This means
that the court should not simply defer to the City’s
proffered justifications, but must objectively examine
the circumstances to determine whether the
government action is reasonable. The City of Cranston
was not subject to any such scrutiny. “If a state could
reduce its financial obligations whenever it wanted to
spend the money for what it regarded as an important
public purpose, the Contract Clause would provide no
protection at all.” Id.

13
Despite this, there is tension regarding who bears
the burden of establishing that legislation is reasonable
and necessary. Rhode Island required the City of
Cranston only to testify credibly to their proffered
justifications, requiring no objective indications of the
reasonableness of their actions, an no analysis as to the
content of the testimony of justification other than
credibility.
Although there is a dearth of cases that speak
specifically as to the burden of proof required of a state
or municipality in a Contracts Clause analysis, it is
clear that many jurisdictions would have shifted the
burden to the City to do more than put words to their
justifications. “Defendants bear the burden of proving
that the impairment was reasonable and necessary.”
Univ. of Hawaii Prof’l Assembly v. Cayetano, 183 F.3d
1096, 1106 (9th Cir. 1999). See also Pizza, at 323
(holding that once a plaintiff has established a
substantial impairment, the burden shifts to the state
to “proffer a significant and legitimate public purpose
for the regulation.”); Pure Wafer, Inc. v. City of
Prescott, 14 F.Supp.3d 1279, 1299 (D.Ariz. 2014)
(“Because the Court concludes that the City
substantially impaired its obligations under the
Agreement, the burden shifts to the City”); Pierce Cnty.
v. State, 148 P.3d 1002, 1009, 1015 (Wash. 2006)
(stating in its Contract Clause analysis that “the
justifications for the reasonableness and necessity of
the challenged statute must first be offered by those
defending the statute’s constitutionality”); Jacobsen v.
Anheuser-Busch, Inc., 392 N.W.2d 868, 872 (Minn.
1986) (acknowledging that for Contract Clause
purposes, “if a substantial impairment exists, those

14
urging the constitutionality of the legislative act must
demonstrate a significant and legitimate public
purpose behind the legislation”).
Even those that put the burden on the plaintiff
acknowledge there is a tension. “Saddling a plaintiff
with the burden of proving a lack of reasonableness or
necessity is in some tension with the Supreme Court’s
instruction that ‘complete deference to a legislative
assessment of reasonableness and necessity is not
appropriate...’ United Auto., Aerospace, Agr.
Implement Workers of America Intern. Union v.
Fortuno, 633 F.3d 37, 45 (1 st Cir. 2011)
Rhode Island courts embraced a “credible evidence”
standard which effectually meant the City of Cranston
merely needed to testify credibly that they believed
they were doing the right thing. However, credibility
only tests the truthfulness of the testimony as to the
belief, not the reasonableness of the belief itself. The
burden on the City of Cranston was so negligible that
it flies in the face of the mandate that less deference be
given due to the self-interest inherent in escaping the
City’s own contractual promises. The City of Cranston
own self-interest, and the political advantage of its
leaders, in avoiding raising taxes or maintaining an
expensive bargain is undeniable; relying solely on the
testimony of a mayor who seeks political approval for
his continued position simply ignores the need for there
to be a judicial check on the City of Cranston before it
can avoid its own obligation. “Neither alternative
would have been popular among politician-legislators,
but that is precisely the reason that the contract clause

15
exists--as a ‘”constitutional check on state legislation.’”
Condell v. Bress, 983 F.2d 415, 420 (2 nd Cir. 1993).
If reasonableness is to be the standard under which
the City of Cranston may escape their own financial
obligation, then the court must do more than rubber
stamp proffered justifications, no matter how “credible”
they are. “The ‘some credible evidence’ standard does
not require the factfinder to weigh conflicting evidence,
merely requiring… the bare minimum of material
credible evidence to support the allegations… In
contrast, the ‘fair preponderance’ standard allows for
the balancing of evidence from both sides, and gives the
subject the opportunity to contest the evidence and
testimony.” Valmonte v. Bane, 18 F.3d 992, 1004 (2nd
Cir. 1994). As the First Circuit held, “a state must do
more than mouth the vocabulary of the public weal in
order to reach safe harbor.” McGrath v. R.I. Ret. Bd.,
88 F.3d 12, 16 (1st Cir. 1996).
For an impairment to be both reasonable and
necessary, “it must be shown that the state did not
(1) ‘consider impairing the . . . contracts on par with
other policy alternatives.” Buffalo Teachers Fed’n v.
Tobe, 464 F.3d 362, 371 (2nd Cir. 2006) quoting United
States. Trust Co., 431 U.S. at 30-31). An impairment of
this nature must be a “last resort measure” which can
be chosen “only after other alternatives had been
considered and tried.” Id. “Such efforts must be
genuine and not merely for ‘political expediency.’” Ass’n
of Surrogates & Supreme Court Reporters v. State of
N.Y., 940 F.2d 766, 773 (2 nd Cir. 1991).

16
To satisfy constitutional scrutiny, especially when
less deference is due to a municipality because it is
impairing its own contract, more must be shown than
a mere feeling that an option was unreasonable, and
the judiciary needs to assess whether alternatives were
properly evaluated. See United States Trust Co., 431
U.S. at 31; Ass’n of Surrogates & Supreme Court
Reporters, 940 F.2d at 773 (“if the federal judiciary’s
proper role [in evaluating alternatives] were as supine
as defendants assert it to be, the contract clause would
be a ‘dead letter.’”) “Despite … self-affirmation that it
was justified in repudiating and changing the material
terms of its contractual relationship with public
employees, it is the role of the judiciary to engage in
this evaluative analysis, not the legislature.”
Burnham, William C. (2015) “Public Pension Reform
and the Contract Clause: A Constitutional Protection
for Rhode Island’s Sacrificial Economic Lamb” Vol 20:
Iss. 3, Article 7.
However, the lower courts in Rhode Island’s
employed a highly deferential review standard,
following the lead of Baltimore Teachers Union v.
Mayor & City Council of Baltimore, 6 F.3d 1012, 1015
(4th Cir. 1993). This decision has been highly criticized
for not employing independent judicial review
necessary when a state or municipality’s self-interest
is implicated due to impairing their own contractual
obligations.
“[T]he opinion granted substantial
deference to the city’s judgment, as if it were dealing
with the impairment of private contracts, and exercised
little independent judgment on the reasonableness or
necessity of the city’s action.” Massachusetts
Community College Council, 649 N.E.2d at 714 (citing

17
Baltimore Teachers Union v. Mayor of Baltimore: Does
the Contract Clause Have Any Vitality in the Fourth
Circuit?, 72 N.C.L.Rev. 1633, 1644-1648 (1994) “The
Fourth Circuit’s misapplication of United States Trust
cannot be explained by compelling factual differences
because Baltimore Teachers Union presents an even
stronger case for the application of the Contract Clause
than did United States Trust”; Note, Fourth Circuit
Upholds City’s Payroll Reduction Plan as a Reasonable
and Necessary Impairment of Public Contract, 107
Harv.L.Rev. 949, 949 (1994) “[T]he court misapplied
Supreme Court precedent and undermined the
protection of the economic rights of parties to public
contracts”). See also, Cayetano, 183 F.3d at fn 6.
The Contract Clause requires more of an
independent judicial assessment than employed by the
trial justice. Such an assessment would objectively
consider and weigh whether the City could utilize less
drastic options, such as raising taxes, or whether a
drastic impairment was necessary. United States Trust
Co., 431 U.S. at fn 17 (“words like “‘necessary’ also are
fused with special meaning, …the element of necessity
traditionally has played a key role in the most
penetrating mode of constitutional review.”)
II.

The City of Cranston Unreasonably Chose
to Legislate Away Their Contractual
Responsibility Rather Than Choose a Less
Drastic Approach to Address Financial
Concerns.

There are a number of concerns inherent in whether
the City of Cranston was justified in robbing petitioner
retirees of their benefits; however, all can be subsumed

18
under an assessment of reasonableness. The City of
Cranston Ordinances can only survive the Contracts
Clause scrutiny if they were reasonable; but an
examination of the Ordinances show that they were not.
At the outset, the City of Cranston must have a
legitimate public purpose to enact the Ordinances
which impaired the petitioner retirees’ contractual
rights to a COLA. A legitimate public purpose may
only “be one meant to address fiscal emergencies and
not merely a sovereign attempting to save money.”
United States Trust Co., 431 U.S. at 26. As this Court
explained, ‘[i]f a State could reduce its financial
obligations whenever it wanted to spend the money for
what it regarded as an important public purpose, the
Contract Clause would provide no protection at all.’”
United States Trust Co., 431 U.S. at 26.
While arguably the economic climate in the
recession posed some challenges to the City of
Cranston, “[f]inancial necessity, though superficially
compelling, has never been sufficient of itself to permit
states to abrogate contracts.” Carlstrom v. State, 694
P.2d 1, 5 (Wash. 1985) (citing United States Trust Co.,
431 U.S. at 22, n.19) (“An economic emergency . . . is
just another factor ‘subsumed in the overall
determination of reasonableness.’”) The Supreme Court
in Illinois reflected that an economic recession or
underfunded pension system did not justify reduction
in pension benefits pursuant to police power: “our
economy is and has always been subject to fluctuations,
sometimes very extreme fluctuations.” Heaton v.
Quinn, 32 N.E.3d 1, 22 (Ill. 2015). Simply put, all cities,
towns, and states can expect at some point there may

19
be a recession and face economic challenges. If
everyone can utilize a downturn in the economy to
avoid their financial responsibility, no contract is safe.
There was no true financial emergency in 2013
requiring the City of Cranston to take drastic action of
avoiding its own financial obligations. To find a
legitimate public purpose, the necessary emergency
nature of the fiscal crisis cannot be understated:
“‘[a]lthough economic concerns can give rise to the
City’s legitimate use of the police power, such concerns
must be related to ‘unprecedented emergencies,’ such
as mass foreclosures caused by the Great Depression.’”
AFSCME, Local 2957 v. City of Benton, 513 F.3d 874,
882 (8th Cir. 2008). See also Welch v. Brown, 935
F.Supp.2d 875, 883-884 (E.D. Mich. 2013)(City of Flint
was in a “financial emergency” as defined by the State,
but the City failed to provide evidence of imminent risk
of bankruptcy and the need to balance the budget in a
single year rather than extend, and thus was not a
sufficient emergency to justify impairment.)
The Rhode Island court used the words of financial
“emergency” but made no findings of fact relative to a
true emergency. Nor was there any to be made because
after the recession around 2009, by 2013 the City of
Cranston had already been able to improve its financial
condition. Despite this, it chose to further save money
and avoid a tax increase by avoiding its own financial
obligations. However, the court simply rubber stamped
the City of Cranston’s own assessment that its
financial condition was sufficiently poor to justify
breaching its own contract with the retirees who had
served the city.

20
The City of Cranston ordinances, causing a COLA
freeze and impairing the petitioners earned contractual
benefits, under the governing law, should only have
been implemented “after other alternatives had been
considered and tried.” Tobe, 464 F.3d at 371. In this
matter, there was no evidence that other measures
were actually tried or actively tested to determine how
it would impact the City of Cranston. The City’s own
Summary of Scenarios for Critical Status Emergence
Plan showed that, without any COLA freeze, the City
could satisfactorily satisfy the Rhode Island statutory
mandate to fund its pension fund, simply by paying
100% of the recommended ARC.
No evidence was introduced about why the City of
Cranston could not afford to pay its ARC in future
years. The City could easily have adjusted the amount
of its debt by adjusting the amortization period.
Rather, any “reform” scenarios “considered” all
included different variations of COLA suspensions. An
increase of taxes was not only discounted as a potential
solution, but taxes were not increased at all in the year
that the ordinances were enacted, showing that the
City of Cranston actively chose to rob its own retirees
of their earned COLAs rather than ask its population
to share the burden of the existing contractual
obligation since such a tax increase would be highly
politically unpopular.
The Rhode Island Supreme Court justified its lack
of objective analysis of the financial status of the City
of Cranston and relying on the Second Circuit decision
of Tobe, 464 F.3d 362. However, this decision has been
criticized as “twist”ing the Supreme Court precedent to

21
employ a highly deferential state-friendly approach.
See Michael Cataldo (2015) “Revival or Revolution:
U.S. Trust’s Role in the Contracts Clause Circuit Split”,
St. John’s Law Review: Vol. 87: No. 4, Article 9.
Available at: http://scholarship.law.stjohns.edu/
lawreview/vol87/iss4/9.
In contrast, other Circuit Courts have emphasized
the need for the court to take an active role in
analyzing the appropriateness of a state or
municipality’s action. Holding, for example, that “[t]he
absence of any feasibility studies, which it appears
were not commissioned by the Government, not only
deprives us of any meaningful way to corroborate the
District Court’s assessment, but also reinforces our
concern that the Legislature indeed may have imposed
a more drastic impairment than necessary and may not
have adequately considered alternatives before
impairing its contractual obligations.” United Steel
Paper & Forestry Rubber Manufacturing Allied
Industrial and Service Workers International Union
AFL-CIO-CLC v. Government of the Virgin Islands,
842 F.3d 201, 214 (3rd Cir. 2016). See also Toledo Area
AFL-CIO Council v. Pizza, 154 F.3d 307, 323 (6th Cir.
1998); City of Benton, 513 F.3d at 882; Cayetano, 183
F.3d 1096; State of Nev. Employees Ass’n, Inc. v.
Keating, 903 F.2d 1223, 1228 (9 th Cir. 1990)
Further, while Tobe, 464 F.3d at 362 held that “[i]t
cannot be the case, however, that a legislature’s only
response to a fiscal emergency is to raise taxes;” the
same circuit court just 15 years earlier in Ass’n of
Surrogates, 940 F.2d at 773 found that there existed
the ability to raise taxes, and thus reasoned that the

22
extent of the impairment was too extreme as less
drastic options were available. There is a distinction
between the two cases; prior to the enactment of
legislation the city in Tobe had raised taxes, and tried
alternatives. 464 F.3d at 362. In the Surrogates case,
the state, like Cranston, chose not to raise taxes
because it would have been politically unpopular.
An impairment of a contract is not reasonable or
necessary if “‘a less drastic modification would have
permitted’ the contract to remain in place.” United
States Trust Co., 431 U.S. at 25-26. “Similarly, a
State is not free to impose a drastic impairment when
an evident and more moderate course would serve its
purposes equally well.” Id. It was unreasonable for the
City to act with haste to resolve the problem of an
underfunded pension plan with only one measure when
the future could easily hold a solution without
necessitating a drastic contract impairment. See
Welch, 935 F.Supp.2d at 883-884. Petitioner has
argued less drastic options; for example, any increase
in taxation would have reduced the problem. Therefore,
the drastic forfeiture of contract rights would not be
necessary. See Keating, 903 F.2d at 1228.
It was not reasonable that the City of Cranston
could pessimistically predict, without any evidence, an
inability to pay ARCs for future years to excuse a
current breach of the contractual rights of CPRAC
retirees. The City of Cranston failed to act reasonably
in light of the relevant standards, and therefore the
ordinances which impaired petitioner contract rights
were repugnant to the United States Constitution.

23
III.

The City of Cranston Created the Very
Crisis it Used to Try to Excuse its Breach of
Contract.

There is no question that the City of Cranston’s
pension fund was underfunded and in “crisis” status as
defined by RI statute, as many Rhode Island cities and
towns were. However, it was also clear that this was
not a new or “unprecedented” problem. See AFSCME,
Local 2957, 513 F.3d at 882. A city cannot claim a
“legitimate public purpose” when it has acted, “through
its funding decisions, to create the very emergency
conditions used to justify its suspension of the rights
conferred and protected by the constitution.” Jones v.
Municipal Employees’ Annuity and Benefit Fund of
Chicago, 50 N.E.3d 596 (Ill. 2016). It is clear that the
pension “crisis” was a creation of the City of Cranston’s
own actions.
The City of Cranston failed to fully pay the Annual
Required Contribution, (“ARC’) as determined by its
own actuaries, starting at least as early as 1999, long
before the recession and the financial “emergency.” For
15 years, the City has compounded the issue and grown
the pension shortfall.
To allow for a City to create a fiscal disaster
through their own consistent disregard of the wellknown consequences to its own actions, and then to
allow them to use that same fiscal disaster as a reason
to impair its own contracts would be unconscionable
and unreasonable. It truly would rob the Contracts
Clause of any meaning if a city could impair its own
contract at any point by creating the very problem it
allegedly must solve as a legitimate public purpose.

24
This Court has held that if a problem existed at the
time a contractual obligation began, you cannot then
impair the contractual obligation on the basis of that
same problem. See United States Trust Co., 431 U.S. at
32.
“An impairment is not a reasonable one if the
problem sought to be resolved by an impairment
of a contract existed at the time the contractual
obligation was incurred. If the foreseen problem
has changed between the time of the contracting
and the time of the attempted impairment, but
has changed only in degree and not in kind, the
impairment is not reasonable.” Id.(emphasis
added). See also Cayetano, 183 F.3d at 1107;
Massachusetts Community College Council v.
Commonwealth, 649 N.E.2d 708, 713 (Mass.
1995)
The City of Cranston not only consistently
underfunded the ARC, but augmented the problem by
continuing to enter into CBAs which included the 3%
COLA despite being aware that the pension fund was
painfully underfunded. In fiscal years 2008 to 2012,
the City of Cranston entered into agreements with the
police and firefighters which included a 3% COLA as a
pension benefit.
This is a bright line rule of reasonableness, and the
City of Cranston should have failed as they created the
very issue that they sought deliverance from. See also
Mass. Comm. College Council v. Commonwealth, 649
N.E.2d 708, 713 (Mass. 1995) (citing U.S. Trust, 431
U.S. at 29-32). Other courts were more successful in
their application. In Carlstrom, the court concluded

25
that the State’s refusal to implement bargained-for
salary increases for certain State employees was not
reasonable because the State’s economic emergency
was expected and foreseeable when it entered into the
employment contracts. See Carlstrom, 694 P.2d at 5.
(“Since the State was fully aware of its financial
problems while negotiating and prior to signing the
Agreement, it cannot now be permitted to avoid the
Agreement based on those same economic
circumstances.”) See also United Steel Paper, 842 F.3d
at 214 (“The Government knew of the economic crisis
facing the Virgin Islands at the time it was negotiating
with the Unions and when it concluded the collective
bargaining agreements… both the Governor -- who
signed the agreements -- and the Legislature -- which
later voted to impair them -- were fully aware from the
outset.”) The lower courts deferred to the City’s
testimony of financial woes relating to the recession as
contributing to the situation, ignoring the City of
Cranston’s active role in creating its own financial
peril.
IV.

The
Petitioner’s
Loss
of
Earned
Contractual Benefits Was Incorrectly
Assessed as a Regulatory Taking Because
the Distinction Between Physical and
Regulatory Takings Have Been Blurred.

“Contract rights are a form of property and as such
may be taken for a public purpose provided that just
compensation is paid.” United States Trust Co., 431
U.S. at 19 fn 16. As such, the abrogation of CPRAC’s
COLA benefits by the City’s ordinances is a violation of
CPRAC’s members due process rights as a taking

26
without just compensation under the Takings Clause of
the United States Constitution.
This Court has developed different tests for physical
takings, property outright appropriated for use, and
regulatory takings, which has diminished or impacted
property rights. Penn Central Transp. Co. v. City of
New York, 438 U.S. 104, 123-124 (1978).
“Physical takings (or physical invasion or
appropriation cases) occur when the government
physically takes possession of an interest in property
for some public purpose.” Tobe, 464 F.3d at 374. The
distinction is that a “regulatory taking transpires when
some significant restriction is placed upon an owner’s
use of his property for which ‘justice and fairness’
require that compensation be given.’” Philip Morris,
Incorporated v. Reilly, 312 F.3d 24, 33 (1st Cir. 2002).
The City of Cranston ordinances, outright
suspending 10 years of earned benefits, should have
been clearly a physical taking, for which compensation
would be required per se. “The effect of a COLA is not
to increase an employee’s benefits. Rather, it is to
preserve the purchasing power of the compensation
previously awarded.” Liberty Mut. Ins. Co. v.
Whitehouse, 868 F.Supp. 425, 431 (D.R.I. 1994). It
could not be simpler: CPRAC retirees had already
earned the 10 years of compounding COLA benefits;
the yearly compounding was a manner and method of
computation, not an indicator of any uncertainty in
value or a benefit. Therefore, when the City of
Cranston appropriated 10 years of that earned,
compounding benefit, it committed an outright
“physical” taking.

27
Despite this Court’s guidance in regards to the
distinction from physical and regulatory takings, the
application in the lower courts have muddled the tests
such that seemingly any legislative enactment,
regardless of its actual impact, are treated as
regulatory takings. In contrast, this court in Connolly
v. Pension Benefit Guaranty Corporation, adopted a
regulatory taking analysis when there was a state
impairment of some private contractual rights, making
clear that the analysis was proper because “the United
States has taken nothing for its own use.” 475 U.S.
211, 224 (1986). Here, the City is directly taking the
money already owed to retirees, and they are using
that money for other municipal purposes, essentially
putting money it owes back into its own pocket. It is no
less a physical taking than if they had actively
garnished their bank accounts or reached into the
retirees’ pockets to take the money, as the
compounding COLA was already earned. However,
because the compounding COLA is not a tangible piece
of physical property, which is much easier to
conceptualize as a “physical” taking or invasion, the
lower courts have unnecessarily treated this
contractual impairment as a regulatory taking.
As this Court warned, “[w]e are in danger of
forgetting that a strong public desire to improve the
public condition is not enough to warrant achieving the
desire by a shorter cut than the constitutional way of
paying for the change. As we already have said, this is
a question of degree -- and therefore cannot be disposed
of by general propositions.” Pennsylvania Coal
Company v. Mahon, 260 U.S. 393, 416 (1922). The City
of Cranston bargained for service from its Police and

28
Firefighters, and struck a bargain which included a
benefit of the compounding COLA for the pension,
risking that such payments would compound and
become burdensome in the future. “So far as …
communities have seen fit to take the risk …, we
cannot see that the fact that their risk has become a
danger warrants the giving to them greater rights than
they bought.” Id. Simply because the City of Cranston
may have later thought their promises of a
compounding COLA unwise and too costly does not
mean that they can simply walk away without “paying
for the change.” Id.
V.

The Treatment of the COLA Suspension as
a Temporary Measure Rather Than a
Measure Taking Earned, Investment
Backed Pension Benefits Disregards the
Actual Loss Suffered by Petitioners to
Their Earned Contractual Rights.

There was no question in the mind of the Rhode
Island Courts that the quantitative loss to the
petitioner retirees, suspending their compounding
COLA for 10 years, was significant. And yet, despite
acknowledging the relevant facts, the word
“suspension” caused the City of Cranston ordinances to
be treated as a “temporary” measure. This
misapplication had dire ramifications on both the
Contracts Clause and Takings Clause analysis as both
considered the degree of the impairment caused by the
City of Cranston Ordinances.
As to the Contracts Clause analysis, the degree or
extent of the impairment is another relevant factor in
determining whether it is sufficiently reasonable to

29
achieve a legitimate public purpose. United States
Trust Co., 431 US at 7. Relying on primarily only on
the Second Circuit case of Tobe, the lower courts
reasoned that since the suspension was only for 10
years and did not remove the COLA entirely, the extent
of the impairment was minimal. 464 F.3d at 374.
While the Second Circuit is distinct in its deferential
treatment of state action from other Circuit courts, the
comparison of the degree of the impairment in the two
cases is also woefully in error. In Tobe, the law in
question enacted a wage freeze, which the court
reasoned was temporary and subject to review, and
only impacted compensation yet to be earned. Id.
Thus, the comparison between Tobe’s wage-freeze
and the ordinances, which outright undoes earned
compensation, ignores the key component of the COLA
benefits; they are not future earnings for “services to be
rendered” but compensation for services already
rendered, compensation that is already earned. Tobe
at 372. A prospective impairment was “dissimilar to
U.S. Trust Co., [which offered] protection ‘to those who
invested money, time and effort against loss of their
investment through explicit repudiation;’” an
impairment which “does not affect past salary due
for labor already rendered or money invested.”
Id. (citations omitted)(emphasis added).
Although the 3% COLA increase compounded
annually, that was a schedule for the payment of an
already earned benefit, not a promise of future
unearned compensation. If a retiree’s length of lifetime
was known, a retiree’s pension, including the
compounding COLA benefit, could be quantified in

30
total for the retiree at the time of the retirement; the
total amount of the benefit should not decrease for any
reason because this is compensation already earned.
Accordingly, 10 years of that compounded COLA
benefit is a defined amount which deducts from the
total compensation already earned. Cf. Tobe, 464 F.3d
at 371. See also Massachusetts Community College
Council, 649 N.E.2d at 714 (“It is significant that the
courts struck down a State’s attempt at budget
balancing which involved only a delay in salary
payments, and not… the total elimination of certain
compensation.”)
The petitioner retirees had earned and invested in
their contractual retirement benefits. The City of
Cranston had promised them a yearly 3% compounding
COLA when they retired; the City of Cranston should
not be allowed to reach back to alter contract terms
after they had negotiated their benefits, served under
their contract, invested in their retirement, and then
actively retired. This is the very action that this Court
warned against in United States Trust. 431 US at 7.
Whether the suspension would be for 10 years, or 20, or
forever should not alter the analysis much as this
matter involved “explicit repudiation” of a promised,
earned benefit. Id.
The inaccurate analysis regarding the degree of the
impact of the impairment spills over into the Takings
analysis as well if this matter was to be treated as a
regulatory taking. “Regulatory takings are further
subdivided into categorical and non-categorical
takings.” Sherman v. Town of Chester, 752 F.3d 554,
564 (2d Cir. 2014). “‘Anything less than a complete

31
elimination of value, or a total loss,’ is a non-categorical
taking.” Id.
In a regulatory taking, the question is whether a
regulation has gone too far to diminish the value of a
property right held. Penn Central Transportation Co.,
438 U.S. at 124. Thus, the Court has identified three
factors for this analysis to determine whether a taking
has occurred: “(1) ‘[t]he economic impact of the
regulation on the claimant,’ (2) ‘the extent to which the
regulation has interfered with distinct investmentbacked expectations,’ and (3) ‘the character of the
governmental action.’” Id. This Court has emphasized
that an important consideration is the level of
interference with “reasonable investment backed
expectations.” Id.. Here, Appellant members had
invested in their pensions, which included the
compounding COLA.
Again, essentially stealing from petitioner retirees
who had earned and invested in benefits including the
compounding COLA, simply because the City of
Cranston found their contract to be an expensive one,
financially difficult to maintain, is abhorrent to the
Constitution of the United States. The breach of the
retirees’ vested benefits flies in the face of this Court’s
warnings against an impotent Contract Clause.
“Adherence to constitutional requirements often
requires significant sacrifice, but our survival as a
society depends on it. Heaton, 32 N.E.3d at 28.(citing
Ex parte Milligan, 71 U.S. 2, 120-21 (1866)).

32
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for certiorari.
Respectfully submitted,
PATRICK J. SULLIVAN
Counsel of Record
Sullivan and Sullivan
300 Centerville Road
Suite 300W
Warwick, RI 02886
(401) 823-7991
patrick@sullivan-attorneys.com
MARISA A. DESAUTEL
MICHELLE M. HAWES
The Law Office of Marisa Desautel
38 Bellevue Ave.
Newport, RI 02840
(401) 477-0023
marisa@desautelesq.com
Counsel for Petitioner
August 30, 2019

